CERTIFICATE OF COMPLIANCE
Case No. Householder v. APRI
Caption: 19-70
As required by Supreme Court Rule 33. l(h),
I certify that the document contains 1,029 words,
excluding the parts of the document that are
exempted by Supreme Court Rule 33.l(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on August 12, 2019.

c~~
Samantha Collins
Record Press, Inc.

Sworn to before me on
August 12, 2019
NADIA R. OSWALD HAMID
Notary Public, State of New York
No. 010S6101366

